Report No. D-2007-085     April 23, 2007




   Reporting of Navy Sponsor Owned
          Material Stored at the
  Naval Air Systems Command Activities
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DCI                   Data Collection Instrument
e-Tims                Electronic Tooling Information Management System
NAVAIR                Naval Air Systems Command
OM&S                  Operating Material & Supplies
PP&E                  Property, Plant, and Equipment
RRAM                  Real-time Reutilization Asset Management System
SFFAS                 Statement of Federal Financial Accounting Standards
SOM                   Sponsor Owned Material
                                   INSPECTOR GENERAL

                                  DEPARTMENT OF DEFENSE

                                     400 ARMY NAVY DRIVE

                                ARLINGTON , VIRGINIA 22202-4704





                                                                                 April 23, 2007

MEMORANDUM FOR ASSI STANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTRO LLER)
               COMMANDER, NAVAL AIR SYSTEMS COMMAND
               NAVAL INSPECTOR GENERAL

SUBJECT: Reporting of Navy Sponsor Owned Material Stored at the Naval Air Systems
         Command Activities (Report No. D-2007-085)


     We are providing this report for information and use. We considered management
comments on a draft of this report when preparing the final report.

       Comments on the draft of this report conformed to the requirements of DoD Directive
7650.3 and left no unresolved issues. Therefore, no additional comments are required.

       We appreciate the courtesies extended to the staff. Questions should be directed to Mr.
James L. Komides at (614) 751-1400, extension 211 or Mr. John K. Issel at (614) 751-1400,
extension 212. See Appendix B for the report distribution. The team members are listed inside
the back cover.

                                     By direct ion of the Deputy Inspector General for Auditing:

                                            /~~
                                            Paul . ranetto, CPA

                                   Assistant Ins ctor General and Director

                                     Defense Financial Auditing Service

               Department of Defense Office of Inspector General
Report No. D-2007-085                                                      April 23, 2007
  (Project No. D2006-D000FJ-0130.001)

         Reporting of Navy Sponsor Owned Material Stored at the
                 Naval Air Systems Command Activities

                                Executive Summary

Who Should Read This Report and Why? Navy personnel responsible for reporting
the amount and value of Sponsor Owned Material stored at Navy facilities should read
this report. It discusses the financial reporting and control of Sponsor Owned Material
stored by Naval Air Systems Command activities.

Background. The Department of the Navy reported $58.8 billion of Operating Materials
and Supplies on its first quarter FY 2006 financial statements. This included a
sub-category of supplies and materials termed Sponsor Owned Material. The Navy
defines Sponsor Owned Material as material needed to support program manager mission
requirements. The material is used for item fabrication, assembly, testing, manufacture,
repair, or research and development. For the fourth quarter FY 2006, the Naval Air
Systems Command reported $4.67 billion of Sponsor Owned Material.

Results. The Naval Air Systems Command did not accurately report the Sponsor Owned
Material it included in the Navy’s FY 2006 Financial Statements. The Navy misclassified
the material and overstated its reported value at the four locations we visited. More than
$2.5 billion of Sponsor Owned Material was improperly classified and reported as
Operating Materials and Supplies, including $1.9 billion of special tooling and test
equipment, $481.6 million of aviation support equipment held for Foreign Military Sales,
and $113.7 million of general support equipment Those items should have been reported
in either the Navy Inventory or Property, Plant, and Equipment accounts.

Additionally, the Naval Air Systems Command did not maintain audit trails or adequately
validate the data gathered about its Sponsor Owned Material before submitting the data to
the Assistant Secretary of the Navy (Financial Management and Comptroller) for
inclusion in the financial statements. Therefore, the Naval Air Systems Command
overstated the Sponsor Owned Material inventory by more than $1.5 billion. Also, the
Naval Air Systems Command did not always follow physical control procedures for
managing materials, including performing required receipt, storage, and issue functions.
Our review of 199 judgmentally selected items, valued at $616.4 million, disclosed
quantity errors in 45 items. The total value of the errors was $443.2 million.

Overall, the audit showed that the value of Operating Materials and Supplies reported on
the Navy Financial Statements was overstated by at least $4 billion. We identified
internal control weaknesses in the financial reporting and inventory management of
Sponsor Owned Material. The Navy Air Systems Command needed to ensure its
financial reporting of Sponsor Owned Material complied with Federal Financial
Accounting Standards No. 3 and 6. Also, it needed to perform a complete reconciliation
of its Sponsor Owned Material inventory amounts recorded in the Real-time Reutilization
Asset Management System with the actual amounts of on-hand inventory. Lastly, Naval
Air Systems Command activities must ensure that audit trails were maintained and
supporting documentation available for all data recorded in accounting systems and used
in financial reports.

Unless the Naval Air Systems Command properly reports its Sponsor Owned Material
and improves its inventory controls, future Navy financial statements will be unreliable
and not in compliance with generally accepted accounting principles. In addition, the
Navy will continue to be at high risk for loss of materials.

Management Comments. Comments from the Assistant Secretary of the Navy
(Financial Management and Comptroller) were responsive. The Assistant Secretary of
the Navy (Financial Management and Comptroller) concurred with all recommendations.
Therefore, no further comments are required.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents
Executive Summary                                                    i

Background                                                          1

Objectives                                                          1

Finding
     Financial Reporting and Controls Over Sponsor Owned Material   3

Appendixes
     A. Scope and Methodology                                       13
         Prior Coverage                                             13
     B. Report Distribution                                         14

Management Comments
     Department of the Navy                                         15
Background
    The Department of the Navy reported $58.8 billion of Operating Materials and
    Supplies on its first quarter FY 2006 financial statements. This included a
    sub-category of supplies and materials termed Sponsor Owned Material. Navy
    Sponsor Owned Material (SOM) consists of material that program managers
    purchase to support a program’s lifecycle mission requirements. The Naval Air
    Systems Command (NAVAIR) stores SOM at 15 locations. The locations include
    Port Hueneme, California; Point Mugu, California; Barstow, California; China
    Lake, California; North Island, California; El Centro, California; Patuxent River,
    Maryland; Jacksonville, Florida; Lakehurst, New Jersey; Beaufort, South
    Carolina; Cherry Point, North Carolina; Norfolk, Virginia; Granite City, Illinois;
    Tucson, Arizona; and Cheatham, Virginia. It also manages SOM issued and in
    use at DoD contractor facilities world-wide.

    The Navy defines SOM as “material required in support of program managers’
    mission requirements for production, life cycle maintenance, and installation of
    systems and equipment consistent with the mission charter. The material usage
    may involve, but is not limited to: item fabrication, assembly, testing,
    manufacture, repair, or research and development.”

    NAVAIR Centers perform research, development, test and evaluation, logistics,
    and maintenance functions, and provide industrial base and fleet support. The
    work performed by the Centers is in support of sponsor (primarily Program
    Executive Office or Program Management Office) requirements. Examples of
    NAVAIR sponsor programs include those that support the Navy’s A-4, A-7,
    AV-8B, H-53, H-60, EA-6B, P-3, F-14, and F-18 aircraft.

    Naval commands report the value of SOM on the financial statements through a
    Navy web-based system called the Data Collection Instrument (DCI). DCI users
    at the reporting level enter information each quarter. This information is
    consolidated at the command level and forwarded to the Assistant Secretary of
    Navy (Financial Management and Comptroller) who consolidates and provides
    the information to the Defense Finance and Accounting Service for inclusion in
    the Navy’s financial statements. SOM is reported as an asset on the Navy
    General Funds Balance Sheet and is included as part of Operating Materials and
    Supplies (OM&S). In the fourth quarter of FY 2006, NAVAIR reported
    $4.67 billion in SOM as OM&S held for use.



Objectives
    Our audit objective was to evaluate the controls over Sponsor Owned Materials
    stored at NAVAIR locations. Specifically, we evaluated the physical inventory
    control and financial reporting of material reported as SOM. We also reviewed
    internal controls as they related to the audit objective. See Appendix A for a
    discussion of the scope and methodology.


                                         1
Review of Internal Controls
     We identified internal control weaknesses for NAVAIR as defined by DoD
     Instruction 5010.40, “Managers Internal Control (MIC) Program Procedures,”
     January 4, 2006. NAVAIR did not have adequate internal controls over the
     financial reporting and inventory management of SOM. Implementing
     Recommendations 1, 2, 3, and 4 will improve the overall financial and inventory
     management controls. A copy of the report will be provided to the senior official
     responsible for internal control in NAVAIR.




                                         2
           Financial Reporting and Controls Over
              Sponsor Owned Material
           NAVAIR incorrectly reported about $2.5 billion of SOM as OM&S. This
           included $1.9 billion of aviation special tooling and test equipment,
           $481.6 million of aviation support equipment held for Foreign Military
           Sales, and $113.7 million of general aviation support equipment. Those
           items should have been reported in the Inventory or Property, Plant, and
           Equipment accounts. Additionally, the Naval Air Systems Command did
           not adequately validate the data gathered for Sponsor Owned Material
           before submitting the data to the Assistant Secretary of the Navy
           (Financial Management and Comptroller) for inclusion in the financial
           statements which led to an overstatement of the inventory by over $1.5
           billion. We also found errors related to inventory control. Our review of
           199 judgmentally selected sample items, valued at $616.4 million,
           disclosed errors in the quantities on hand in 45 of the items we sampled.
           The value of the errors totaled $443.2 million. Additionally, NAVAIR
           program managers did not always dispose of excess material and some
           assets were stored improperly. We attributed the conditions to the
           following control weaknesses:

              •   NAVAIR did not follow existing guidance and properly classify
                  and report its assets in accordance with Federal accounting
                  standards;

              •   NAVAIR personnel did not perform and document annual physical
                  inventories or comply with established policy to require audit trails
                  for the amounts that are reported in its financial statements; and

              •   NAVAIR personnel did not provide adequate oversight of contract
                  work performed to modify the inventory updating and reporting
                  process.

           As a result of the conditions, the value of Operating Materials and
           Supplies reported on the Navy Financial Statements for FY 2006 was
           overstated by at least $4 billion and the Navy risked undetected loss of
           items. Unless the Naval Air Systems Command properly reports its
           Sponsor Owned Material and improves its inventory controls, future Navy
           financial statements will be unreliable and not in compliance with
           generally accepted accounting principles and the Navy will continue to be
           at high risk for loss of materials.

Reporting SOM
    We visited four of the Naval Air Systems Command locations that store SOM:
    Port Hueneme, California; Patuxent River, Maryland; Granite City, Illinois; and
    Jacksonville, Florida. We also reviewed data from the Navy’s information
    management system on special tooling and test equipment. NAVAIR reported the
    information from locations worldwide.
                                        3
Proper Reporting of NAVAIR SOM

NAVAIR reported the following SOM incorrectly:

Special Tooling and Test Equipment. NAVAIR improperly reported
$1.9 billion of SOM special tooling and test equipment assets as OM&S. The
special tooling consisted of production tooling jigs, dies, fixtures, molds, patterns,
taps, and gauges used by contractors to manufacture weapon systems. The test
equipment included unique weapon system test benches and test sets used by
NAVAIR activities and contractors to accomplish special purpose testing during
the manufacture of weapon systems.

NAVAIR special tooling and test equipment assets were tracked in a
non-financial feeder system, the Navy Electronic Tooling Information
Management System (e-Tims). According to e-Tims records, NAVAIR’s special
tooling and test equipment were located at multiple locations that included:

•      the Aerospace Maintenance and Regeneration Center, Tucson, Arizona,
       valued at $75 million;

•      a storage facility in England, valued at $143 million;

•      a storage facility in Granite City, Illinois, valued at $378 million; and

•      contractor facilities throughout the United States, valued at $1.315 billion
       issued and in use.

NAVAIR’s special tooling and test equipment held at these locations did not meet
the Federal Accounting Standards Advisory Board standard for reporting as
OM&S. Instead the assets met the definition of Property, Plant, and Equipment.
According to the Statement of Federal Financial Accounting Standards (SFFAS)
No. 3, “Accounting for Inventory and Related Property,” October 27, 1993,
OM&S is tangible personal property to be consumed in normal operations. The
standard requires that once an asset is issued to the end user, OM&S assets are
expensed and removed from the balance sheet.

According to SFFAS No. 6, “Accounting for Property, Plant and Equipment”
(PP&E), June 1996, PP&E is defined as “tangible assets that (1) have a useful life
of 2 or more years, (2) are not intended for sale in the ordinary course of business,
and (3) are intended to be used or available for use by the entity.”

NAVAIR’s special tooling and test equipment met the definition of SFFAS No. 6.
The assets had a useful life of 2 years or more, were not going to be consumed in
normal operations, and were issued and in use at contractor facilities. The special


                                      4
tooling and test equipment assets should have been reported as part of the Navy’s
PP&E line on the Navy’s balance sheet.

Equipment Held for Foreign Military Sales. NAVAIR improperly reported
$481.6 million of SOM aviation support equipment held in the Foreign Military
Sales Reserve Program. The Foreign Military Sales Reserve Program included
aviation support equipment consisting of material that was needed to provide
initial outfitting and life cycle support for aircraft, systems, and equipment in
support of foreign governments under the Security Assistance Program. Included
in these balances were SOM from retired Navy aircraft programs including the
A-4, A-7, and P-3 (models A and B) aircraft. Those aircraft were no longer part
of the Navy’s weapons system arsenal and were considered obsolete. Because
these assets were not going to be consumed in normal Navy operations and were
held for sale, they should have been reported as Foreign Military Sales inventory.

Aviation Equipment. NAVAIR included $113.7 million of aviation support
equipment items in its OM&S financial reports that did not meet the definition of
OM&S. Included in the totals were aircraft refueling pods, test sets,
communications modems, and a spectrum analyzer. Of the sample items selected
for review at Patuxent River, Maryland, 31 items valued at $9.1 million were over
15 years old and had been repeatedly used, repaired, and reissued for additional
use. Of the 50 items, 6 were being used by the program office. The items did not
meet the definition of OM&S because they had an expected life of 2 years or
more and would not be consumed in operations. Also, the items that had been
issued to the user should have been expensed and, as such, should not have been
reported as OM&S.

Overstatement of NAVAIR SOM Inventory. NAVAIR personnel made a
posting error when entering data into the fourth quarter FY 2006 DCI. NAVAIR
personnel entered negative $565 million in the issuances field on the DCI. The
issuances field is a negative field and by erroneously entering a negative amount
in the negative field the amount became positive. Instead of reducing on-hand
SOM inventory by $565 million, the on-hand inventory was increased
by $1.13 billion. This error occurred because NAVAIR personnel did not
adequately validate the data gathered about its Sponsor Owned Material before
submitting the data to the Assistant Secretary of the Navy (Financial Management
and Comptroller) for inclusion in the financial statements.

In addition to the posting error, NAVAIR duplicate reported SOM already
reported through the Navy’s e-Tims system. NAVAIR reported $2.31 billion of
SOM for the fourth quarter for Special Tooling and Test Equipment managed in
the e-Tims system. The data showed that NAVAIR also duplicate reported
$379 million of material located at Granite City, Illinois. The reporting error
occurred because NAVAIR Headquarters personnel believed that material stored

                                     5
      at Granite City was not included in the active e-Tims SOM totals. Information
      provided by the Navy Electronic Tooling System Program Manager showed that
      it was included in both SOM and e-Tims.

Existence of SOM
      In addition to reporting deficiencies, NAVAIR inventory controls were not
      adequate to ensure the existence and complete accountability for all SOM assets.

Results of Sample

      We visited four locations, (shown in Table 1) to verify the existence of assets
      classified as SOM. Our review of 199 judgmentally selected items, valued at
      $616.4 million, disclosed quantity errors in 45 of the items, valued at
      $443.2 million. Table 1 shows details on the number and value of errors by
      location.

                             Table 1. Sample Errors by Location

                                     NUMBER OF ITEMS
               LOCATION             WITH DISCREPANCIES        VALUE OF DISCREPANCIES

       PATUXENT RIVER, MD.                      9                   $ 27,606,417

       PORT HUENEME, CA.                       34                    414,863,103

       GRANITE CITY, IL.                        1                       366,552

       JACKSONVILLE, FL.                        1                       342,230


          TOTAL                                45                   $443,178,302




      The primary reasons for the errors are the lack of compliance with policy, poor
      material inventory practices, and poor oversight of the contractor selected to
      upgrade the inventory process.




                                           6
       Materials Inventory Management. For 20 items in our sample, poor inventory
       management practices resulted in variances between the quantities on hand and
       the quantities recorded on inventory records. Table 2 shows the 20 items and the
       differences between the records and the physical count.

                       Table 2. Quantity Variances Caused by Weak Controls

                                                                      ACTUAL         VALUE
     SAMPLE                                             QUANTITY     PHYSICAL         NOT
       NO.      ITEM                                   PER RECORD     COUNT        SUPPORTED


1    GC - 47    MOLD                                       1             0           $ 366,552
2    JAX - 25   TEST SET RADAR                             1             0              342,230
3     PH - 1    DRONE, AIRCRAFT                            15           42            5,778,000
4     PH - 2    DRONE, AIRCRAFT                             3           12            4,861,530
5     PH - 3    DRONE, AIRCRAFT                            26           30            1,281,160
6    PH - 13    PUMP, ROTARY                               14           13                14,102
7    PH - 15    ROTOR, TURBINE, AIRCRAFT GAS TURBINE       6             1             142,808
8    PH - 17    PUMP, ROTARY                               18            3             118,523
9    PH - 18    AFT SUPPORT ASSEMBLY                       24           25                 5,766
10   PH - 28    CHAMBER, COMBUSTION, TURBINE ENGINE        4             2                34,432
11   PH - 29    POWER SUPPLY                               3             2                22,893
12   PH - 43    NOZZLE ASSEMBLY, TURBINE, AIRCRAFT         4             0                47,901
13   PH - 44    PILOT CHUTE                                47           50                3,057
14   PH - 45    POWER SUPPLY                               13           12                3,679
15   PH - 47    VALVE, GATE                                4            10              71,618
16   PR - 18    INDICATOR, DIGITAL DISPLAY                 1             0             374,661
17   PR - 36    STORE ASSEMBLY, REFUELING                  4             2             530,000
18   PR - 48    GYRO, LASER                                1             9            1,454,336
19   PR - 49    GROUND CONTROL STATION, LAND BASED         1             0             350,000
20   PR - 50    GROUND CONTROL STATION, SHIPBOARD          1             0             325,000
                                                                                    $16,128,250


       We attributed the discrepancies to NAVAIR program managers’ lack of
       management over the stocks of materials. We found little evidence that the
       NAVAIR centers were using standard inventory practices, including documenting
       material receipt, storage, and issue. For example, at Port Hueneme quarterly
       inventories were performed and records maintained of the on-hand counts, but
       issue and receipt documentation was not maintained to establish an audit trail for
       the movement of the material. After the maintenance shop had determined that it
       was not economical to repair an item, any usable components or piece parts were
       stripped from the item and turned into the SOM warehouse. The maintenance
       shop did not maintain documentation to show what was shipped, and the
       warehouse did not record the receipt of this material. During the audit, Port
       Hueneme personnel began to establish the needed procedures to account for the
       movement of material.




                                               7
Updated Information. NAVAIR and contractor personnel performed
wall-to-wall inventories to locate, identify, and report SOM. NAVAIR reported
the inventory data in the Navy’s Real-time Reutilization Asset Management
(RRAM) system. NAVAIR procedures require that the RRAM system be
updated on a monthly basis to record changes to the inventory. NAVAIR did not
follow the monthly update procedures. NAVAIR reported $571.4 million of
Class III SOM inventory in RRAM from March 2006 through September 2006
and that amount was reported by the Naval Supply Systems Command in their
DCI submission in September of 2006.

To aid in the reporting process, the contractor, Stanley Associates, developed a
Customer Inventory Record tool to create a Master RRAM Table to facilitate the
electronic upload of inventory data to the RRAM system. However, in January
2006 while validating inventory, NAVAIR personnel noted discrepancies in Part
Number, National Stock Number, Commercial and Government Entity Codes and
Quantity fields. The contractor subsequently performed an analysis on Customer
Inventory Record and determined that programming language errors and input
errors caused the discrepancies. The contractor could not explain why the errors
occurred.

 For 25 items in our sample, the quantities on hand varied significantly from the
quantities recorded on inventory records. To illustrate, 11 of the 50 items we
selected for review were not on hand at Port Hueneme and there was no evidence
they had been there. NAVAIR attributed the $428.1 million in errors related to
the 25 sample items in the SOM inventory database at Port Hueneme, California,
and Patuxent River, Maryland, to the contractor errors. Table 3 shows the 25
items and the differences between the records and the physical count.




                                    8
            Table 3. Quantity Variances Caused by Contractor Errors and Weak Controls

         SAMPLE                                                QUANTITY     ACTUAL    VALUE NOT
                                                                  PER      PHYSICAL
           NO.     ITEM                                         RECORD      COUNT     SUPPORTED


    1    PR - 01   CONVERTER-CONTROLLER                             8         1         $ 1,524,880
    2    PR - 02   MODEM, DATA CONTROL                              8         2           1,216,380
    3    PR - 33   CONVERTER-CONTROLLER                            100        1          21,566,160
    4    PR - 47   STORE ASSEMBLY, REFUELING                        1         0             265,000
    5    PH - 06   ENGINE, TURBO-JET ∗                             225       122         25,126,953
    6    PH - 07   CIRCUIT CARD ASSEMBLY                           8000       0         325,352,000
    7    PH - 08   CIRCUIT CARD ASSEMBLY                           24000      0          45,768,000
    8    PH - 09   CONVERTER, VOLTAGE                              138        0           3,901,536
    9    PH - 10   NACELLE                                          10        4             434,256
    10   PH - 11   FUEL CONTROL, MAIN, TURBINE ENGINE               8         2             491,868
    11   PH - 12   COMPUTER, FLIGHT DIRECTOR                        6         0             212,064
    12   PH - 16   ACTUATOR, ELECTRO-MECHANICAL, LINE               16        8                81,528
    13   PH - 19   ARMING UNIT                                      22        2             103,800
    14   PH - 20   REGULATOR ASSEMBLY, OIL                          14        7                48,254
    15   PH - 22   CABLE ASSEMBLY, SPECIAL PURPOSE                  4         0                91,571
    16   PH - 23   PARACHUTE, AIRCRAFT, DECELERATION                80        40               45,430
    17   PH - 30   BAG, FLOTATION                                  120        68               29,203
    18   PH - 31   CHARGER, BATTERY                                 13        0                67,210
    19   PH - 32   CABLE ASSEMBLY, SPECIAL PURPOSE                  14        0                64,400
    20   PH - 35   COMPUTER, FLIGHT DIRECTOR                        2         0                61,044
    21   PH - 36   CIRCUIT BREAKER                                 4000       0                59,240
    22   PH - 40   EXCITER, IGNITION                                13        12                4,061
    23   PH - 41   WING ADAPTER ASSEMBLY                            4         1                38,208
    24   PH - 42   CASE, COMPRESSOR, AIRCRAFT                       3         0                49,254
    25   PH - 46   CIRCUIT CARD ASSEMBLY                            12        0                47,752
                                                                                       $426,650,052



            Two of the largest errors in the sample related to circuit cards. The contractor
            updated the records and recorded 8000 circuit card assemblies (Part No.
            M22759/11-10-9) valued at $325.3 million and 24,000 circuit card assemblies
            (Part No. M27500-20-TE-2T14) valued at $45.7 million. We reviewed those
            items and concluded that during the Customer Inventory Record update process
            wire with a similar part number had been recorded as circuit cards. We found no
            evidence that either type of circuit card ever existed in the inventory. We
            concluded that the contractor-developed electronic upload process caused the
            errors.

            We believe the significant coding errors could have been avoided if oversight by
            NAVAIR personnel had been better. NAVAIR personnel were not providing
            adequate reviews of contractor work performed as the contractor modified and

∗
    Includes all J-85 Engines (Sample 6 [222] and Sample 5 [3]).
                                                      9
    updated the inventory process. Furthermore, even though we notified NAVAIR
    of the significant data errors in June 2006, corrective action had not been taken as
    of October 2006. For example, RRAM data still showed that 225 J85-GE-100
    turbo jet engines used on target drones were located at Port Hueneme. However,
    there were only 122 engines on hand. A review of prior inventory records showed
    that the number of jet engines in the inventory was never greater than 152. The
    difference of 103 engines valued at $25.1 million was still reflected in data
    records, which continued to result in overstated assets in the Navy’s financial
    statements. NAVAIR needed to take immediate action to review and correct the
    RRAM inventory data records at Port Hueneme.

    In addition to the accountability issues, the assets for 6 of the 199 items we
    sampled (valued at $3 million) were obsolete and should have been turned in to
    disposal. We asked personnel at Patuxent River about $7.6 million of SOM assets
    (that were not part of our sample) stored in two CONEX containers behind a
    Program Office. They indicated that the material was so old they no longer knew
    its purpose.

    We also observed that two of our sample items, valued at $623.3 thousand, were
    stored in a CONEX storage shed at Patuxent River. The shed was not
    environmentally secure. It had standing water on the floor and the lighting in the
    shed was not adequate enough to read the stock numbers or part numbers on the
    material. The sample items in the shed were avionics equipment items (including
    converter controllers and data control modems) that should have been stored in
    more environmentally stable conditions.

    This accountability, retention, and storage of SOM has been a long-standing
    problem. The last review of NAVAIR accountability over SOM was conducted
    by the Naval Audit Service during 1998. Naval Audit Service Report No. 037-98,
    “Management of Sponsor Owned Material at Naval Air Systems Command
    Warfare Centers,” June 2, 1998, disclosed that the Centers had significant
    amounts of SOM that were not recorded and for which the value was
    indeterminable. Also, the report stated that the Centers were holding excess
    quantities of SOM and not making it available to other Navy and DoD activities,
    and that the NAVAIR Program Offices preferred to store material for possible
    future use rather than turning the material into the supply system or disposal for
    no credit. In response to the report findings, NAVAIR established a Total Asset
    Visibility Group and special inventory teams to improve the accountability of
    SOM assets and to conduct special inventories of SOM.

Conclusion
    We concluded NAVAIR needed to follow Navy guidance on reporting of SOM.
    At present the guidance consists of NAVAIR Instruction 4451.2, “Management of
    Naval Air Systems Command Sponsor Owned Material,” dated December 4,
    2003. The instruction assigns responsibility and establishes policy for the control,
    management, and accountability of NAVAIR SOM. The goal of this policy is to:

       •   accurately record and report SOM inventory including financial reporting
           requirements;

                                         10
       •   optimize reutilization and redistribution of SOM through Total Asset
           Visibility; and

       •   retain only needed levels of SOM to execute the NAVAIR mission.

    NAVAIR program offices did not follow the Instruction. The Navy needs to
    dedicate resources to enforce the guidance to ensure compliance with financial
    reporting and material management practices. NAVAIR also needs to complete a
    review of SOM asset accountability at the NAVAIR locations as soon as possible.
    The poor controls adversely affected the overall integrity of the NAVAIR SOM
    inventory and could impede the capability to detect theft, fraud, or diversion of
    material.

Recommendations and Management Comments
    We recommend that the Commander, NAVAIR:

           1. Enforce Naval Air Systems Command (NAVAIR) Instruction
    4451.2, “Management of Naval Air Systems Command Sponsor Owned
    Material,” December 4, 2003, to ensure that the financial reporting of
    Sponsor Owned Material complies with the Statement of Federal Financial
    Accounting Standards No. 3 and No. 6. Enforcement should include
    ensuring proper categorization of material as Operating Materials and
    Supplies; Inventory; or Property, Plant, and Equipment. Any changes
    should be coordinated with the Assistant Secretary of the Navy (Financial
    Management and Comptroller).

            Assistant Secretary of the Navy (Financial Management and
    Comptroller) Comments. The Assistant Secretary of the Navy (Financial
    Management and Comptroller) concurred. The Assistant Secretary stated that the
    Naval Air Systems Command will enforce compliance with Instruction 4451.2
    upon receiving revised guidance pertaining to the proper segregation of
    Sponsored Owned Material in categories that comply with the Statement of
    Federal Financial Accounting Standards No. 3 and No. 6. The Assistant Secretary
    also agreed to publish updated instructions for the Data Collection Instrument that
    will properly define the distinction between Operating Materials and Supplies and
    Property, Plant, and Equipment for financial statement purposes. Naval Air
    Systems Command will review and modify its instructions and internal policies
    and procedures not later than 90 days following new guidance from the Assistant
    Secretary’s Financial Management Operations office.

           2. Direct NAVAIR personnel to perform a complete reconciliation of
    the Sponsor Owned Material inventory amounts recorded in the Real-time
    Reutilization Asset Management System with the actual amounts of
    inventory at the NAVAIR locations that maintain Sponsor Owned Materials.

           Assistant Secretary of the Navy (Financial Management and
    Comptroller) Comments. The Assistant Secretary of the Navy (Financial
    Management and Comptroller) concurred. The Naval Air Systems Command will
    perform a complete reconciliation of its Sponsor Owned Material, and develop

                                        11
and implement policy and procedures for accurate updating of the Virtual
Real-time Reutilization Asset Management sponsor owned database. This action
is to be completed by July 31, 2007.

       3. Require all NAVAIR activities follow DoD Financial Management
Regulation, volume 6A, chapter 2, “Financial Reports Roles and
Responsibilities,” March 2002. At a minimum, NAVAIR Activities must
ensure that audit trails are maintained and demonstrate the accuracy,
completeness, and timeliness of a transaction, as well as provide
documentary support, if required, for all data generated and submitted to
the Defense Finance and Accounting Service for recording in the accounting
systems and use in financial reports.

        Assistant Secretary of the Navy (Financial Management and
Comptroller) Comments. The Assistant Secretary of the Navy (Financial
Management and Comptroller) concurred. The Naval Air Systems Command is
reviewing and will revise Instruction 4451.2 and the “Sponsor Owned Material
Customer Review and Inventory Maintenance Procedures.” The new procedures
will ensure the accuracy, completeness, timeliness, and documentary support for
all data generated by the customer and entered into finance and accounting
systems for inclusion in financial reports. The Naval Air Systems Command will
also establish appropriate internal controls to assure accuracy of data provided to
the Comptroller. The review and modification to instructions and internal policies
and procedures will be completed not later than 90 days following new guidance
from the Assistant Secretary’s Financial Management Operations office.

      4. Strengthen its management control procedures to require that data
from subordinate commands that are used in the compilation of Sponsor
Owned Material balances are adequately validated prior to their inclusion in
the Navy financial statements.

        Assistant Secretary of the Navy (Financial Management and
Comptroller) Comments. The Assistant Secretary of the Navy (Financial
Management and Comptroller) concurred. The Naval Air Systems Command will
review and update management control procedures to ensure inventory data
received from subordinate commands undergoes quality assurance checks and
proper validation. This process will strongly enforce complete accounting
oversight of Sponsor Owned Material inventory totals before submitting the data
to the Assistant Secretary of the Navy (Financial Management and Comptroller)
for inclusion in financial statements. Naval Air Systems Command is highly
committed to proper accounting and reporting of Sponsor Owned Material. The
Naval Air Systems Command has an estimated completion date of July 2007 to
complete the review of the management controls.




                                    12
Appendix A. Scope and Methodology
   We performed the audit at the NAVAIR Headquarters in Patuxent River,
   Maryland, and at NAVAIR SOM storage locations at Port Hueneme, California;
   Granite City, Illinois; and Jacksonville, Florida, to evaluate the controls over the
   existence of SOM inventory. We also reviewed DoD, Navy, and NAVAIR
   policies and regulations regarding responsibilities and procedures for the control
   over and financial reporting of OM&S. We judgmentally selected 199 items to
   perform record-to-floor reviews to determine physical existence and record
   accuracy. We performed this audit from January 2006 through April 2007 in
   accordance with generally accepted government auditing standards.

   Scope Limitation. Initially, NAVAIR personnel could not provide auditable
   SOM universe information for us to perform the announced audit. We requested
   NAVAIR provide us with an inventory report for each entity that reports its SOM
   as of December 31, 2005, the end of the first quarter of FY 2006. We expected
   the dollar value of each entity’s inventory report once summarized would equal
   what was reported in the Navy’s financial statements. However, after several
   attempts to gain the information, we concluded that NAVAIR was not prepared to
   provide a universe for its SOM assets that agreed with the amount on the Navy
   financial statements. NAVAIR personnel agreed with our conclusion and stated
   that they were unable to recall information for that time. They did provide a
   database of their current SOM inventory. As such, we selected our sample from
   the data provided. This limitation did not affect the results of the audit.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the automated systems, although we used data produced by
   these systems to supplement the audit. We did not evaluate the controls over
   computer processed data because the objective of this audit was to review controls
   over the existence of sponsor owned material for financial reporting. Not
   evaluating the controls over computer processed data did not affect the results of
   the audit.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD financial management, and supply chain
   management high-risk area.

   Prior Coverage. During the last 5 years, the Naval Audit Service issued one
   report related to Sponsor Owned Material. The Navy also conducted an audit of
   NAVAIR Sponsor Owned Material during calendar year 1998 that is pertinent to
   this audit report. The results of these audits are discussed in the Finding portion
   of this report.

   Naval Audit Service Report No. N2004-0041, “Logistics Feeder Systems
   Supporting Operating Materials and Supplies Data on the Department of the
   Navy’s Fiscal Year 2002 Financial Statements,” April 27, 2004

   Naval Audit Service Report No. 037-98, “Management of Sponsor Owned
   Material at Naval Air Systems Command Warfare Centers,” June 2, 1998
                                        13
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Air Systems Command

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          14
Department of the Navy Comments




                    15
16
17
18
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service Directorate prepared this report. Personnel of
the Department of Defense Office of Inspector General who contributed to the
report are listed below.

Paul J. Granetto
James L. Kornides
John K. Issel
Walter J. Carney
Clarence E. Knight III
Eric Thacker
John Frawley
William C. Blouvet
Erin S. Hart
Karen Bennett
Cassondra L. Lane
